Nos. 19-431, 19-454
IN THE

Supreme Court of the United States
_________
LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME,
Petitioners,
v.
PENNSYLVANIA, ET AL.,
Respondents.
____________
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, ET AL.,
Petitioners,
v.
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Devi M. Rao, hereby certify that I am a member of the Bar of this Court, and
that I have this 8th day of April 2020, caused three copies of the Brief for The American
Academy of Pediatrics as Amicus Curiae in Support of Respondents to be served via
overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 349-7208
mrienzi@becketlaw.org

Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

Counsel for The Little Sisters of the Poor
Saints Peter and Paul Home

Counsel for Commonwealth of
Pennsylvania et al.

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Donald J. Trump, President of the
United States, et al.

/s/ Devi M. Rao
Devi M. Rao

